<html>
<title> - MISCELLANEOUS NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 107-829]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-829

                   MISCELLANEOUS NATIONAL PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                           S. 1865                               S. 2595

                           S. 1943                               H.R. 1925

                           S. 2571


                                     
                               __________

                             JULY 18, 2002


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                -------
84-559              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon
                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman
BYRON L. DORGAN, North Dakota        CRAIG THOMAS, Wyoming
BOB GRAHAM, Florida                  BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CONRAD BURNS, Montana
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           PETE V. DOMENICI, New Mexico

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     1
Allen, Hon. George, U.S. Senator from Virginia...................    25
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     3
Feinstein, Hon. Dianne, U.S. Senator from California.............     2
Jones, Durand, Deputy Director, National Park Service, Department 
  of the Interior................................................    13
Mellon, Lori A., Executive Director, Mesa Verde Foundation.......    21
Schiff, Hon. Adam, U.S. Representative from California...........    10
Solis, Hon. Hilda L., U.S. Representative from California........     6
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     2
Warner, Hon. John W., U.S. Senator from Virginia.................     5

                                 LETTER

Hutchison, Hon. Kay Bailey, U.S. Senator from Texas and Edwards, 
  Hon. Chet, U.S. Representative from Texas......................    30

 
                   MISCELLANEOUS NATIONAL PARKS BILLS

                              ----------                              


                        THURSDAY, JULY 18, 2002

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

 OPENING STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM 
                             HAWAII

    Senator Akaka. The hearing will come to order.
    I welcome all of you witnesses, as well as those who have 
interest in this. The purpose of this afternoon's hearing 
before the Subcommittee on National Parks is to consider 
several bills relating to existing or potential new units of 
the National Parks System.
    The bills include two bills authorizing studies of lands in 
southern California for possible inclusion in the National Park 
System: S. 1865, sponsored by Senator Boxer, to authorize the 
study of the Lower Los Angeles River and the San Gabriel River 
watersheds; and S. 2571, Senator Feinstein's bill, to evaluate 
the feasibility of establishing the Rim of the Valley Corridor 
as an addition to the Santa Monica Mountains National 
Recreation Area; S. 1943, Senator Warner's bill, to authorize 
an additional 100-acre parcel of land to the George Washington 
Birthplace National Monument in Virginia; S. 2595, Senator 
Campbell's bill, to authorize the construction of a cultural 
center and related facilities on private land adjacent to Mesa 
Verde National Park in Colorado; and H.R. 1925 authorizing a 
study of the Waco Mammoth Site Area in Waco, Texas, for 
possible addition to the National Park System.
    I understand that the Park System has concerns with the 
proposed Mesa Verde Cultural Center. The other bills either 
authorize studies for areas or provide for relatively minor 
changes to existing park boundaries. Other than S. 2595, I do 
not believe any of the bills will be particularly 
controversial, although we may need to amend some of the study 
bills to make them consistent with other studies the committee 
has authorized.
    After we hear from any committee members who wish to make 
an opening statement, we will turn to our congressional 
witnesses. And so at this time, I will call on my colleagues on 
the committee.
    Senator Thomas is here. He is the ranking member of the 
subcommittee. And I call on Senator Thomas for his opening 
statement.
    Senator Thomas.
    [A prepared statement of Senator Feinstein follows:]

    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator From 
                               California

    Good afternoon, Chairman Akaka and members of the Subcommittee. I 
appreciate the opportunity to testify before you today in support of 
Senate Bill 2571, the Rim of the Valley Corridor Study Act. As the 
author of the House version of the bill, I would like to express my 
gratitude to Senator Feinstein for her leadership on behalf of all 
Californians in introducing this legislation in the Senate.
    S. 2571 would call for a study by the National Park Service of the 
feasibility and suitability of more than doubling the size of the Santa 
Monica Mountains National Recreation Area to include the Rim of the 
Valley Corridor consisting of areas of rare Mediterranean ecosystem. 
Since Congress set aside the Santa Monica Mountains National Recreation 
Areas in 1978, federal, state and local authorities have worked in 
remarkable cooperation to manage what is the world's largest urban 
park. Now, nearly a quarter-century later and in the face of tremendous 
projected population growth and development pressures, Congress, by 
passing this bill, again has the opportunity to help safeguard and 
supplement the existing state and local parks, open space and 
recreational opportunities in Southern California.
    In addition to protected land, the Rim of the Valley Corridor 
encompasses private property. However, within the Santa Monica 
Mountains National Recreation Area, the Park Service is permitted to 
acquire private property from voluntary sellers or donors only and is 
prohibited from exercising the powers of eminent domain. Indeed, 
private ownership need not be incompatible with open space preservation 
efforts, and there are many good examples of private-public 
partnerships in the Santa Monica Mountains which have served to 
maintain the beauty of open space and preserve the rights of property 
owners.
    It is my hope that the Rim of the Valley Corridor Study Act will 
embody a similar dream and vision--of a Southern California enhanced 
not only by what was built, but also by what was preserved. This 
legislation enjoys strong bipartisan support and the House version is 
supported by every Republican and Democratic Member of Congress whose 
district includes portions of the Rim of the Valley Corridor, including 
Representatives Howard Berman, David Dreier, Elton Gallegly, Howard 
``Buck'' McKeon, Brad Sherman and Hilda Solis. I thank you for your 
attention, and ask for your support for the Rim of the Valley Corridor 
Study Act.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. I will try and be 
brief so we can get to Senator Warner as soon as possible. 
Thank you very much, and we welcome you here.
    I just want to comment, while I have a chance, on a couple 
of bills that are under consideration today that have to do 
with studies in southern California. The Forest Service is 
already going through a planning process there in the Los 
Angeles area. I question the need for the Park Service to 
restudy the lands under the jurisdiction of the Forest Service.
    A bill to study the Lower Los Angeles and San Gabriel River 
watersheds has merit, but I question making it a unit of the 
National Park as the best way to protect these resources. There 
are other ways, I think, to provide recreational opportunities 
for the citizens of this area aside from establishing it as a 
unit of the National Park System.
    So I think a simple resource study would be more 
appropriate than a park study in that instance. And it should 
include the Corps of Engineers, as well as the Forest Service.
    The Rim Valley Corridor for inclusion in the Santa Monica 
Mountains brings similar concerns. The Rim of the Valley 
consists of land within several forests, as a matter of fact. 
And I think they should be very much involved in it.
    So in any event, I guess, generally, again, I think we have 
to have some criteria for what we do with parks and should be 
able to say ``Here is something that is more appropriately 
something else.'' I guess that is part of the reason for the 
studies. But the Park Service ought not to, I think, 
individually be making studies of areas of this kind.
    So we can talk about that later, Mr. Chairman. But I 
appreciate the opportunity to look at the bills today.
    Senator Akaka. Thank you for your statement.
    Senator Campbell.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
                            COLORADO

    Senator Campbell. Thank you, Mr. Chairman. You mentioned 
that S. 2595 may have a little controversy, but, frankly, bills 
change. That is what this hearing process and the amendment 
process is all about. It is not going to be controversial when 
we get done with it. I can tell you that.
    But I am very pleased that you called this hearing. And I 
am very happy to see Ms. Lori Mellon here from the Mesa Verde 
Park Foundation, who is going to testify.
    Mr. Chairman, I live about 50 miles from Mesa Verde and 
visit there very often. It is really a marvelous place. It 
reflects more than 700 years of history. People lived there 
from about 1400 A.D.--I mean, from before pre-Columbian times 
through 1300 A.D. Eventually there, they built elaborate stone 
villages, which are now called cliff dwellings. And if you ever 
have an opportunity, you should visit them. They are one of the 
great wonders of the world, I think, a manmade wonder.
    They lived in those cliffs just about the last 100 to 125 
years that they were in there before, for whatever unknown 
reasons, they left. Some say they left because of the 
successive droughts. Other people have different varying 
opinions on why they left. But they left, and they left this 
complete town. Much of it had fallen into disrepair and ruins 
by the time it was rediscovered, so to speak. And the 
discoveries are still going on.
    We had a massive fire in Mesa Verde just a few years ago. 
And that fire itself left hundreds, if not thousands, of new 
things that had not been discovered because of the brush, 
overgrowth, before that, to add to the treasure trove of 
artifacts that were already there.
    The park was established in 1906 to prevent the injury or 
spoilation of the dwellings and artifacts where these 
prehistoric people had lived. And that purpose has expanded to 
aid the advancement of archeological science and to provide 
education and certain enjoyment for the tens of thousands of 
people who visit there every year.
    Unfortunately, the mission has not been well served. I went 
over there a few years ago. It has been about six, I guess, 
now. And I was really rather alarmed to see that literally 
millions of these priceless artifacts, some that can 
deteriorate because they are made of vegetable matter, like 
sandals made by straw or some grass, were housed in a tin 
building, a big tin building; no climate control, infested with 
mice and bugs, kept on shelves and kept in slide-out drawers.
    Any museum in the world would have been delighted to get 
their hands on part of that treasure trove that was being 
housed on shelves and in slide-out drawers. But certainly, they 
would have taken better care of it than we are, because it 
should have been in a climate-controlled atmosphere. It is 
deteriorating, some of it, no question about it. That shed is 
no place to store 800-year-old corn, as an example, or 
different foods that they had grown in those days.
    So this bill provides the Secretary of the Interior with 
the authority to collect and expend donated funds for the 
design and construction and associated costs to build a 
cultural center to address mission-critical needs to protect 
artifacts and archives in support of the Mesa Verde National 
Park.
    This is not the first time that this has been done, by the 
way. Rocky Mountain National Park did something very similar to 
this just a few years ago. More recently, the general 
management plan, a 1988 plan, also talked about upgrading and 
doing this. The importance was documented in those plans. 
However, like so many good intentions, when we have a crunch of 
money; the Federal money is simply not available.
    An environmental assessment was prepared for this project, 
and a decision document was signed in June of this year. The 
environmental assessment documents note that the archeological 
resources, historic resources, and legislatively protected 
scenery would impact the facilities, if they were built inside 
the park. The whole place is just a marvelous study area within 
the park itself.
    Therefore, the assessment concluded that the preferable 
decision would be to place the facility to store and warehouse 
all these wonderful treasures, that it would be preferable to 
have it be on land that is contiguous to the park, but outside 
the park. And that is owned by the Mesa Verde Foundation, which 
is a nonprofit foundation.
    I understand the administration's concern, but I want to 
assure my colleagues I want to avoid a time when we put a lot 
of money into something like this. We have seen our surplus 
disappear, and now we are at a deficit that I know all of us 
have to be very concerned about. But I really do believe that 
there are, there can be, checks and balances put in to ensure 
the Department is not left holding a financial bag.
    For example, under this bill, the Department can work out 
milestones for enduring fiscal responsibility with the 
foundations. It does not require the Secretary to expend any 
money at all. It authorizes the Secretary to consider building 
the curatorial facility on Mesa Verde Foundation land as an 
option, rather than building it within the park.
    So I believe it gives them some flexibility. And the 
Secretary, who I know very well since she came to Colorado 
since she has been in office, she has promoted creative funding 
through partnerships with private entities.
    In fact, in a speech on June 7, she said, ``With so many 
challenges facing our national parks, we cannot do the work 
alone. We need to form partnerships with individuals, 
organizations, and corporations to appreciate, protect, and 
enhance the park.'' And this bill gives her the authority to 
develop that partnership, which she has already discussed.
    The Mesa Verde Foundation and others have really accepted 
the Secretary's call and stepped forward to provide the funding 
to construct what I think is a much-needed facility. And as I 
mentioned, this is not the first time. In fact, one of our 
people who will be testifying used to be at the national park 
in Colorado, Rocky Mountain National Park. And there was a 
facility, as you know, there developed off the park. That bill 
was sponsored by Senator Allard, and I co-sponsored it. I am 
introducing this one, and he is co-sponsoring it.
    But I know this authorization is not exactly the same as 
the construction authorized before, but I think the differences 
can be ironed out.
    So I look forward to the testimony and want to tell the 
people from the administration and my colleagues that I intend 
to try and make sure that we make our differences acceptable to 
everybody who are dealing with this bill.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Campbell, for 
your statement.
    Our first witness is Senator Warner, who is here to testify 
on his bill to expand the boundaries of the George Washington 
Birthplace National Monument.
    Also, I know some of you may have scheduling conflicts. So 
feel free to leave after your statement is made.
    Senator Warner, I want to welcome you to the subcommittee, 
and we look forward to your statement. Please proceed.

        STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. And out of 
deference to the Chair and the distinguished members of the 
committee, Mr. Thomas, Mr. Campbell, I will be very brief.
    I will very quickly say the following: It is interesting, 
and I never realized it, as many times as I have studied George 
Washington, but it was 1656 that his forefathers settled on a 
piece of land in Virginia. And in 1930, the Congress recognized 
the historic importance of this site, of his boyhood home, to 
the Nation and created the George Washington Birthplace 
National Monument.
    Now the purpose of the legislation which I and my 
colleague, the other Senator from Virginia, Senator Allen, are 
putting in is to increase the existing land, which is roughly 
394 acres, by 115 acres. That 115 acres is within the 1930 
creation of the national monument. So it has already been 
recognized by Congress at one important juncture in 1930 as of 
importance. And today the request to this legislation is to 
provide the authorization whereby it can, as a purchase, take 
its queue in the waiting place for hopeful financing in the 
Park Service to achieve the actual transfer of title.
    In the meantime, I am told by Mr. Botra, who I said is 
present in the hearing room representing the parties that I 
enunciated, this group is prepared to buy the property and hold 
it until such time as the appropriations process hopefully 
yields the funds with which to buy the required land.
    So I will not go into the further interesting historical 
perspective. But George Washington frequently went back to this 
piece of land out of his great fondness for it throughout his 
lifetime. It is unlike, interestingly, Robert E. Lee, whose 
home also is but 10 miles or so from this area. And for reasons 
which I am not sure, Robert E. Lee never got back to his 
birthplace again, even though to this day it is a magnificent 
structure, which was the home in which he was born. And it was 
lived in by his family for many, many years. So it is just an 
interesting twist of history.
    I thank the Chair, I thank the members, and submit the 
testimony. I am happy to respond to any question that might 
come from the panel.
    Senator Akaka. Are there any questions?
    Senator Campbell. I have no questions, but certainly 
support this bill and Senator Warner. All of his efforts are 
well known here. He is a great friend, and I support his bill.
    While you were talking about George Washington settling 
there in 1666, though, I whispered to my colleague, Craig 
Thomas, ``What Indian did he take away that land from?'' Craig, 
however, he told me, ``Get over it.'' So I am going to get over 
it and support your bill.
    [Laughter.]
    Senator Warner. I am out of here.
    [Laughter.]
    Senator Akaka. Thank you very much, Senator Warner.
    Senator Thomas. After 400 years, he is still on it.
    [Laughter.]
    Senator Akaka. Thank you.
    Now we will hear from Congresswoman Hilda Solis with your 
statement. Thank you for being here.

  STATEMENT OF HON. HILDA L. SOLIS, U.S. REPRESENTATIVE FROM 
                           CALIFORNIA

    Ms. Solis. Thank you very much, Mr. Chairman and also 
ranking member Thomas and Congressman Campbell.
    It is indeed an opportunity for me to be here today to 
present my bill and the version that Senator Boxer has 
presented, S. 1865, which deals with the Lower Los Angeles and 
San Gabriel River watershed study, an act that we are looking 
to provide assistance, Federal assistance, to an area, an urban 
area, in Los Angeles that I happen to represent. Well over 2 
million reside along this particular river and the Lower Los 
Angeles area.
    We are talking about individuals there that do not have the 
luxury of open space because it is over-developed. And I am 
fearful that in the next decade, because of overpopulation in 
Los Angeles County and that basin, that fewer opportunities 
will be available for working families. Our community has been 
neglected. We currently have three Superfund sites there. Our 
watershed is contaminated. We have high levels of smog. We are 
trying to deal with those issues.
    And one of the things that I believe my constituents and 
others that have been supportive of this legislation on is that 
they would like to see some intervention on the part of the 
Federal Government. And I mean that in a way that they would be 
able to provide recreation, restoration, and ability to enhance 
what little open space is left there.
    According to studies that I have seen, we should have at 
least three acres or more for families in our area. Given that 
number, it is very small for many of the residents that 
represent the area that we are talking about. And I have a map 
that I would like to show you.
    And maybe if you can bring that up closer, staff.
    The purple area, the large block that you see there, is 
actually the Angeles National Forest. So the gentleman, Mr. 
Thomas, makes a good point about the involvement of the Federal 
Government and the Forest Service. Currently, they cover that 
particular area.
    The purple line that runs from below the foothill there all 
the way to the ocean is the river that we are talking about. 
And it kind of branches off. There is actually a fork there, 
the Lower Los Angeles River. And we are talking about a very 
densely populated area.
    But the portion that is pretty open and still natural is 
the area that I represent, the Upper San Gabriel River. I have 
no intention of creating problems for the Army Corps of 
Engineers or the flood basin that we currently know exists 
there, because the Federal Government has been involved for 
many, many years, 20 or 30 years now. I would be willing to 
work with them and also with the Forest Service to see how we 
can begin to address what habitat we have available so that 
people can enjoy what limited space is there.
    Of course, this is a study. I would hope that we could 
involve all the stakeholders. I have attempted to work with all 
of our cities and those at the lower part of both rivers. And I 
know that some of them are very concerned because they feel 
that the Federal Government may come in and require acquisition 
of their lands.
    I have worked in the past few years as a State Senator in 
California to create a State conservancy that models that. We 
currently have the Federal Government involved in that aspect. 
So their presence is already there and felt.
    However, the one part that is missing is the part where the 
Federal Government actively can take a role and put resources 
there. We need tourism dollars. We need rehabilitation dollars. 
We need restoration. People want bike trails. People want areas 
to recreate, to have picnics.
    As a child, if I could explain to you, families like mine 
and others were not able to go to Yosemite, to Sequoia and to 
other places because of limited resources. I come from a large 
immigrant family. What we would do was go up to our neighboring 
creeks and the forests there. And we would spend our time there 
and our vacation period being together and really being able to 
appreciate the open space that we had.
    Knowing that there is still some semblance of that, I think 
it is a priority for the Federal Government to take a look at 
this particular area. We have done it in other parts of the 
country, in New York and in Minnesota, where we do have urban 
parks.
    Now I would just like to say that I realize that the survey 
is done, that perhaps there might be a decision made that this 
would be a historical trail or a heritage park, or it may just 
be that the Forest Service is the better component or agency to 
take over this kind of responsibility.
    Lord knows we need more resources there. As it is now, our 
Forest Service now in the Angeles National Forest is severely 
underfunded. I would welcome any discussion on that manner.
    And thank you, Mr. Chairman. I would be willing to answer 
any questions, and you have my testimony.
    [The prepared statement of Ms. Solis follows:]

    Prepared Statement of Hon. Hilda L. Solis, U.S. Representative 
                            From California

    Chairman Akaka, Ranking Member Thomas, and Members of the 
Committee, I would like to thank you for holding this important hearing 
today and giving me the opportunity to testify on this bill which means 
so much to my community.
    S. 1865, the Lower Los Angeles and San Gabriel Rivers Watershed 
Study Act, would direct the National Park Service to study the Lower 
Los Angeles River, the San Gabriel River and portions of the San 
Gabriel Mountains for potential NPS designation. This bill could 
provide the framework for the future of our regional rivers and could 
eventually provide recreational and environmental opportunities for 
more than two million residents.
    Rivers and mountains have served as the lifeblood of the San 
Gabriel Valley since the Gabrieleno Indian Tribe first settled there 
many centuries ago. However, in the modern age, the area has been 
threatened by development, industry and neglect. I am hopeful that this 
bill will serve as the first step in redefining the San Gabriel Valley 
and exploring ways that we can protect and revitalize our natural 
resources.
    My community is 60% Latino and 30% Asian. We have an extremely high 
unemployment rate and most would assume that our main concern is 
putting food on our tables. However, with three Superfund sites within 
31 miles, 17 gravel pits that resemble moon craters, and a watershed 
that is among the dirtiest in the nation, one of our priorities is the 
environment. The Park Service designation would benefit some of the 
poorest of our society who breathe polluted air and live next to 
superhighways. This will allow our children to enjoy and learn about 
our natural resources.
    The city of New York sets aside nearly 26 percent of its area as 
open space; Los Angeles residents have a meager 10 percent, according 
to a 2001 study by the Trust for Public Land. According to the 
University of Southern California's Sustainable Cities Program, three 
to four acres of open or green space are needed per 1,000 people for a 
healthy environment. Unfortunately, in the San Gabriel Valley, there is 
less than one half acre of land per 1,000 people. I fear that this 
statistic will become more alarming as the population of Los Angeles 
dramatically increases in the coming years. Lack of open space doesn't 
just mean decreased recreational opportunities. As you know, areas 
without open or green space have greater incidences of cardiovascular 
disease, asthma, diabetes, infant mortality, birth defects and cancer.
    The National Park Service now operates several urban parks that are 
similar to the area I am requesting to be studied, such as those in 
Atlanta, GA, the heart of the New York Metropolitan area, San 
Francisco, CA, and the Twin Cities Metropolitan Area in Minnesota. This 
study could be the foundation for a park that will follow the lead of 
these original urban parks and provide, working families in my 
community with the environmental and recreational opportunities that 
over-development often prevents.
    Cities, county agencies, environmental organizations, neighborhood 
associations and ordinary residents are going to the riverside to work 
on parks, landscaping and bike paths. The dedication to revitalizing 
our rivers has inspired the creation of nine local conservancies in the 
Los Angeles area that are kept afloat by state, local and private 
funds. These conservancies are charged with cleaning up abandoned 
areas, buying and preserving what is left of our natural beauty, 
revitalizing the area and providing recreational and educational 
opportunities for residents.
    Federal input and future potential designation by the National Park 
Service will help these groups restore the San Gabriel Valley for both 
the environment and recreation. In addition to providing funding, 
preservation and recreational areas, it will also protect several 
historically and nationally significant areas.
    The El Monte Rurban Homesteads are one example of a historically 
significant area. In 1933, many citizens of Los Angeles County had an 
annual family income that was only between $600 and $1,000, even though 
they were employed. President Franklin Roosevelt devised a program to 
build simple homes on small plots of land that could be intensely 
cultivated in order to supply the families with their major food 
requirements. These were known as subsistence homesteads--also called 
``rurban'' homes in recognition of their rural and urban nature. Some 
of these homesteads still stand on the banks of the San Gabriel River 
today. They were the beginning of the government's effort to help 
families devastated by the Depression and also the inspiration for 
modern public housing.
    Another example of this region's significance is a natural 
formation known as Eagle Rock in the San Gabriel Mountains. According 
to geologists, the rock and its eagle-like indent were formed about 10 
to 15 million years ago. This area was first inhabited by the 
Gabrieleno Indian Tribe and has served as a site for church ceremonies, 
educational hikes and community events for centuries. The famed bandit 
Tiburcio Vasquez also occupied the rock in the days before his final 
robbery and capture in 1874.
    There are also some areas that are havens for hikers, bird 
watchers, and other nature enthusiasts. The Whittier Narrows Recreation 
Area along the San Gabriel River has 296 species of birds, 230 types of 
plants and 24 kinds of animals. In the San Gabriel Mountains, the river 
runs close to wild. Anglers can still catch trout, bass, bluegill, 
carp, catfish and other varieties in the San Gabriel River or its 
lakes.
    The river will always be a flood-control channel, constrained by 
concrete to protect more than 150,000 working-class households on the 
flood plain. But we can start making better use of this area by 
planning and prioritizing recreational opportunities. By protecting our 
past, we can also help to preserve the future. The Lower Los Angeles 
River, San Gabriel River and San Gabriel Mountains provide many 
historically and nationally significant areas that deserve the 
protection of the National Park Service.
    I thank the Chairman, Ranking Member and the Committee for your 
time and would be happy to answer any questions.

    Senator Akaka. Thank you for your testimony.
    Are there any questions from the committee?
    Senator Thomas. Just a couple, if you please.
    As you have indicated, some of these resources are under 
Federal jurisdiction now, managed by the Forest Service and the 
Corps of Engineers. The area that you talk about, according to 
the background here, is approximately 16 cities and several 
unincorporated communities, private land, State land, municipal 
land, Corps of Engineers. It does not sound like a park is the 
appropriate assistance that might be needed there for small 
pieces of open space.
    Would it not make sense to perhaps use those agencies that 
are there and let them study to work towards your goal? It is 
not going to be a park, is it?
    Representative Solis. I think that a study would help to 
determine what it could be. As I said earlier, there is a 
possibility that it could be designated as a heritage park, 
because we have significant historical sites along this river 
and different developments that have been going on for many, 
many years.
    I know that the Park Service would collaborate. My 
understanding, as a member on the Resources Committee in the 
House, we are often asking the National Park Service ``What 
kind of input, what kind of outreach do you do to the 
communities to assure that we have a balanced approach?'' And 
whatever recommendation, I am sure, they come up with will be 
appropriate.
    And as I said earlier, I have no intention of disrupting 
the current movement that is taking place now out in those 
communities. It is more to help replenish, restore, and give 
the cities and municipalities a chance to maybe go after some 
of this assistance that the Federal Government can provide, 
whether it be the Forest Service or the National Park----
    Senator Thomas. I guess the principal purpose is to get the 
assistance.
    Representative Solis. Yes.
    Senator Thomas. Would you be satisfied with a resource 
study?
    Representative Solis. I am sure we could work that out. 
Yes.
    Senator Thomas. Thank you.
    Representative Solis. Thank you. Thank you very much.
    Senator Akaka. Thank you.
    Any further questions?
    Senator Campbell. I have no question about the bill, Mr. 
Chairman. I am just trying to get my bearings on the area 
there, because I have been out in that area some.
    I am sorry we did not get to serve there when I was on the 
House side, Congresswoman Solis. But whose district was that 
before you? Because I knew some of them by----
    Representative Solis. Matthew Martinez.
    Senator Campbell. Oh, is that right?
    Representative Solis. And Estevan Torres.
    Senator Campbell. And Estevan.
    Representative Solis. Yes. And I currently have the support 
of my colleague, Adam Schiff, on the bill and also Grace 
Napolitano. And we are working with many of the stakeholders 
and the local elected, the State Assembly representatives down 
there. And I did attach some photos. So you can kind of see in 
your packet of what it looks like in the area that is still 
untouched.
    And if I could just mention, centuries ago this area 
belonged to the Gabrielino Indians. This is--and they are also 
very much supportive of this legislation and have been very 
helpful.
    Senator Campbell. Thank you. Appreciate it.
    Senator Akaka. Thank you very much, Congresswoman Solis. 
Thank you for your testimony. Thank you for being here.
    I would like to call now on Congressman Adam Schiff for 
your testimony.

    STATEMENT OF HON. ADAM SCHIFF, U.S. REPRESENTATIVE FROM 
                           CALIFORNIA

    Mr. Schiff. Thank you, Mr. Chairman, members. I appreciate 
the opportunity to testify before you today on S. 2571, the Rim 
of the Valley Corridor Study Act. As the author of the House 
version of the bill, I want to express my gratitude to Senator 
Feinstein for her leadership on this issue in introducing the 
bill here in the Senate and for Senator Boxer's strong support, 
as well.
    This bill calls for a study, as well, by the National Park 
Service of the feasibility and suitability of expanding the 
Santa Monica Mountains Recreation Area, a currently existing 
large recreation area established in 1978, to include the Rim 
of the Valley.
    When the Santa Monica Mountains Recreation Area was 
established in 1978, it was one of the largest urban parks in 
the Nation. And it still is. Since 1978, however, the 
population in Los Angeles has exploded. Now one out of every 
ten Americans lives in southern California. It is quite an 
astounding statistic.
    This bill would take a currently State-designated area of 
the Rim of the Valley and study whether all or some portion of 
that Rim of the Valley should be added to the Santa Monica 
Mountains Recreation Area. Since the population has grown so 
dramatically since this area was originally established, we are 
looking for ways to preserve open space in a ratio 
proportionate to the growth in the population.
    The southern California area now has the lowest ratio of 
park and rec land per 1,000 in population. So we are very 
underserved in terms of our open space needs in southern 
California.
    The Rim of the Valley includes, for those of you who are 
familiar with this part of southern California, the Santa 
Monica Mountains, Santa Susana Mountains, San Gabriel 
Mountains, Verdugo Mountains, San Rafael Hills, and adjacent 
connector areas in Los Padres and San Bernardino National 
Forests.
    The bill also covers areas within the Rim of the Valley 
which are a very rare environmental treasure. In fact, one of, 
if not the most, endangered habitat areas in the world, 
Mediterranean Chaparral ecosystem, exists in this area. The 
only other place you can find that, believe it or not, is in 
South Africa. So it is an environmentally sensitive area. It is 
an area with extraordinary human demand for open space and 
recreation uses.
    The bill has very strong bipartisan support in the House. 
Every member in the region, Howard Berman, David Dreier, Elton 
Gallegly, Buck McKeon, Brad Sherman, my colleague Hilda Solis, 
as well as our two Senators, are all cosponsors of the bill. So 
we have a strong bipartisan group of support to study the 
concept.
    And I think, Senator Thomas, you asked a very good 
questions.
    We undertook the same analysis. I know Representative Solis 
did when we were drafting this bill, and that is, is this the 
right designation? Should it be part of a recreation area? 
Would it be more appropriate as a heritage area or a scenic 
area or part of the Forest Service?
    And we thought this was the best and most promising area to 
study. But we do not know the answer. Part of what we are 
hoping that the study will determine is, does this make sense? 
And it may be that only some portion of this area should be 
included in the Park Service and other areas properly excluded. 
But we think that, given the strong support we have from the 
local communities, as well as the congressional delegation, and 
we have established an advisory committee that is made up of 
representatives of the city councils, of the board of 
supervisors, of all the communities affected that would all 
give input on, ``Yes, this should be a part that affects us'' 
or ``No, it should not be a part.''
    We hope that we can do a thoughtful study. The study 
usually takes about 3 years. It is not a rush project. But we 
hope in our generation to do what the generation did 25 years 
ago in establishing this recreation area, and that is to think 
ahead. We have an opportunity to maintain this resource. We may 
not have that 25 years from now, if we do not act today.
    So I appreciate the issues that you have raised and the 
time that you have spent on the bill. And I would be delighted 
to answer any questions.
    Senator Akaka. Thank you very much.
    Are there any questions from the committee? Senator Thomas?
    Senator Thomas. Well, Congressman, I appreciate your 
comments on it. This is a very large recreation area now. It is 
my understanding that that portion of it on the rim is largely 
the Forest Service at this time.
    Mr. Schiff. Senator, there is a significant portion within 
the Rim of the Valley that is Forest Service. But one of the 
things that the study may conclude is that all the areas 
outside of the Forest Service are appropriately within the 
recreation area, and the Forest Service should be kept separate 
and distinct. We could have drafted it to conduct the study 
that way. But that is certainly one very possible scenario.
    Senator Thomas. Well, you know, we are just trying to find 
the best way to move forward with what you are seeking to do. 
And whether it is a park approach or whether--I mean, the 
Forest Service already controls it and so on. But I think we 
will take a look at it some more.
    Mr. Schiff. And to be quite honest, Senator, the area that 
is within the Forest Service is the area of least concern to 
me, because it already does have the protection of the Forest 
Service.
    Senator Thomas. Exactly.
    Mr. Schiff. And if it were of interest to the committee, I 
would be happy to remove that portion from the study. It may be 
that the Department of the Interior would remove it on their 
own, or it might for reasons they conclude that it is properly 
within that park area as well. But that is, I think, the least 
needing of protection, because it already has a designation.
    Senator Thomas. Sure. I guess that is my point. We are 
going kind of back over the same thing, which is already there. 
This is 150,000 acres in downtown Los Angeles.
    Mr. Schiff. Well, Senator, it is not quite downtown. I 
mean, it----
    Senator Thomas. Between downtown and the Pacific Ocean.
    Mr. Schiff. Not precisely, but the--it is basically north 
and east of downtown Los Angeles. The ocean is more to our 
west, although it does go to the west as you point out. The 
main concern that we have is the areas that are within the Rim 
of the Valley now that are largely public areas, not within the 
Forest Service, and the adjacent private areas could be 
preserved for future generations in a cooperative relationship 
with the private sector, with the public sector. But it is a 
window that is closing. The population growth has been 
tremendous. And we feel a compulsion to act before that window 
is shut.
    Senator Thomas. I understand. And I support that. I just 
want to make the point that, as we look at potential parks, 
there are criteria. There are other methods of having land 
protected. We now have a backlog of parks that we are not able 
to take care of. You are asking for a half-million-dollar study 
here, probably three years before there is any money available 
for studies.
    So, I think it is one thing to just be here and approving 
everything. It is another to take an overall look at where we 
want to be over time and the kinds of things that we want to 
set aside.
    I do not mean to be argumentative about it, because this 
may be a good place. But I am just saying I do not think we 
just go into every place and suddenly make it a park. There 
ought to be some conditions and criteria for what parks are. 
And there are lots of other opportunities for preserving lands, 
in addition to being parks or recreation areas.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you.
    Are there further questions?
    Senator Campbell. No, Mr. Chairman.
    Senator Akaka. I want to thank the witnesses very much for 
their testimony. And it certainly will be helpful to the 
committee. Thank you.
    I would like to call on our next two witnesses, Randy 
Jones, the Deputy Director of the National Park Service, who 
will testify on the administration's position on all of the 
bills; and Lori Mellon, the executive director of the Mesa 
Verde Foundation in Colorado.
    Because there are only two of you testifying today, why do 
you not both sit at the table?
    I would like to remind both of you that the text of your 
written statements will be included in its entirety in the 
hearing record. So please feel free to summarize your remarks.
    Mr. Jones, we will begin with your testimony. Please 
proceed in whatever order you prefer. We will ask questions on 
all of the bills after you and Ms. Mellon have completed your 
statements.
    You may proceed.

   STATEMENT OF DURAND JONES, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Jones. Thank you, Mr. Chairman. And I will summarize 
our position on all of these bills for you.
    Senator Akaka. Thank you.
    Mr. Jones. Thank you for the opportunity to present the 
Department's views on S. 2595. The bill would allow Mesa Verde 
National Park to enter into a partnership with the Mesa Verde 
Foundation to raise funds to construct and operate a Mesa Verde 
cultural center on lands located outside the park on lands 
owned by the Mesa Verde Foundation.
    The Department recognizes the needs that the bill is 
seeking to address. However, the Department cannot support this 
bill, because it would circumvent our process for identifying 
park priorities and eliminating the deferred maintenance 
backlog in our national parks.
    The park has had a very successful partnership with the 
Mesa Verde Foundation. And they have been working together on 
the cultural center concept for many years. However, there are 
a number of unresolved issues remaining, including the location 
of the center, the amount of funding that would be required 
from the National Park Service, and the relationship of the 
center to other Service-wide priorities. Given the proposed 
cost of up to $50 million, at least a portion of which would 
come from appropriated funds, we feel that more review is 
necessary before we can recommend proceeding at this time.
    S. 2595 would authorize the Secretary to collect and expend 
donated funds and expend appropriated funds for the design, 
construction, maintenance, and operation of a cultural center 
and related facilities. While we recognize the deficiencies the 
bill seeks to address, particularly concerning inadequacies 
associated with the current curatorial facilities--and Senator 
Campbell quite eloquently and correctly described our urgent 
need for providing appropriate curatorial facilities--as we 
continue to make progress on the maintenance backlog, we will 
begin to identify additional high-priority needs for further 
action. Addressing the curatorial needs at Mesa Verde will 
likely emerge as a significant priority for the National Park 
Service's ongoing review process. We look forward to working 
with Senator Campbell and the committee in addressing this 
deficiency.
    Proceeding on to S. 1865, a bill to study the Lower Los 
Angeles River and San Gabriel watersheds in the Los Angeles 
Basin: The Department does not oppose this bill. However, the 
Department did not request additional funding for this study in 
fiscal year 2003. There are currently 34 studies pending in the 
National Park Service, of which we expect to transmit 4 to 
Congress by the end of 2002.
    In addition to S. 1865, Senator Feinstein has introduced S. 
2571, a bill to evaluate and study the suitability of 
establishing the Rim of the Valley Corridor as a unit of the 
Santa Monica Mountains National Recreation Area. These bills 
affect nearly adjacent territories in the Los Angeles Basin and 
affect nearly identical large constituencies. Combining the 
planning effort to evaluate both areas at one time would not 
only be less confusing to the public, but we feel also would be 
much more cost effective for the Government.
    Since the study of the San Gabriel and Lower Los Angeles 
Rivers is estimated to cost approximately $500,000, there could 
be considerable efficiencies gained by combining and narrowing 
the focus of these proposed studies. This study will address 
habitat quality, access to urban open space, low impact 
recreation and educational uses, wildlife and habitat 
restoration, and protection of the watershed improvements along 
the Los Angeles and San Gabriel watersheds, as well as the 
Valley of the Rim corridor surrounding the San Fernando and La 
Crescenta Valleys.
    The watershed of the Los Angeles and San Gabriel Rivers 
contains important natural and recreational resources, which 
are disappearing in the county. We do feel, as Senator Thomas 
has pointed out, that there is extensive Forest Service land in 
this area. We feel the Forest Service is doing an excellent job 
in managing their lands. And therefore, we think that the 
nature and the extent of the study should be looked at to--we 
think the National Park Service has expertise we can bring to 
the table, but we also feel that the Forest Service needs to be 
a key player, as do other agencies.
    The Los Angeles River and San Gabriel River watershed is 
adjacent to the Los Angeles National Forest and contains State, 
county, and local parks within. The recreational experience 
would be heightened by the establishment of trail connections 
and linkages for the urban populations of Los Angeles, as well 
as for visitors.
    Moving on, S. 2571 directs the Secretary of the Interior to 
conduct a special resources study to evaluate the suitability 
and feasibility of establishing the Rim of the Valley Corridor 
as a unit of the Santa Monica Mountains National Recreation 
Area. The Department does not oppose this bill. But because the 
study area includes a significant amount of U.S. Forest Service 
lands, we believe the bill should be amended to authorize a 
joint study with the Department of Agriculture.
    A combined study would assess habitat quality, access to 
urban open space, low impact recreation and educational uses, 
wildlife and habitat restoration, and protection of watershed 
improvements along the rivers. The study would outline public-
private partnerships. We feel that the scope of the study also 
should not be just looking as to whether these should be units 
of the National Park System but to, in fact, look at a variety 
of private-public ways and partnerships that could be used to 
accomplish what the study identifies as critical needs.
    The Department feels that the provision of S. 2571 that 
establishes a 17-member advisory commission is unnecessary. Any 
special resource study undertaken by the National Park Service 
automatically entails public outreach with members of the 
public and local governments, extended comment periods, and 
more complex analyses, because issues and options in a large 
urban area with such a diverse and extensive group of 
stakeholders at all levels of government would be considered. 
S. 1943, a bill to expand the boundary of George Washington 
Birthplace National Monument, the Department supports the 
enactment of this bill. The bill would authorize the addition 
of approximately 115 acres to the National Monument, the Muse 
property. It also authorizes the Secretary to acquire lands or 
interests in lands within the boundary from willing sellers by 
donation, by purchase with donated money or appropriated funds 
or by exchange.
    The acquisition of the Muse property is essential to the 
viability of this nationally significant resource. In the 
truest sense, this piece of property is the hole in the 
doughnut because park land already surrounds it. And it has 
significant cultural attributes that complement the purposes of 
the National Monument. We feel it would be an excellent 
addition to the monument.
    The proposed legislation would include within the park 
boundary a privately owned parcel of land comprising 115 acres 
known as the Muse tract, which is completely surrounded by the 
park, the Potomac River, and Popes Creek. This tract has been 
farmed by the Muse family since 1668, was contemporary with the 
Washington family farm, and is historically significant since 
it is directly connected with the plantation.
    The Muse family has indicated their willingness to be 
included within the park boundary for eventual acquisition by 
the National Park Service or park partner. It is our 
understanding that the Trust for Public Lands has an option on 
the property at this time.
    Finally, the last one, Mr. Chairman, is H.R. 1925. The bill 
would require the Secretary to conduct a study to determine the 
national significance, suitability and feasibility of 
designating the Waco Mammoth Site in Waco, Texas, as a unit of 
the National Park System. H.R. 1925 passed the House of 
Representatives on May 14, 2002. The Department supports this 
bill.
    H.R. 1925 calls for the completion of a special resources 
study of the Waco Mammoth site that determines the national 
significance, suitability and feasibility of designating the 
site as a unit of the National Park System. Baylor University 
has been investigating this site since 1978 after hearing about 
bones emerging from eroding creek banks that led to the 
uncovering of portions of five mammoths. Since then, several 
additional mammoth remains have been uncovered, making this the 
largest known concentration of mammoths dying from the same 
event. The opportunity to provide important knowledge about 
paleontological resources is significant. We feel this is an 
important study to complete.
    Mr. Chairman, this completes my formal statements on these 
bills. I would be happy to answer any questions you may have.
    Senator Akaka. Thank you very much.
    [The prepared statement of Mr. Jones follows:]

  Prepared Statement of Durand Jones, Deputy Director, National Park 
            Service, Department of the Interior, on S. 1865

    Mr. Chairman, thank you for the opportunity to present the 
Department's views on S. 1865, a bill to study the lower Los Angeles 
River and San Gabriel watersheds in the Los Angeles Basin. On June 13, 
2002, the Department testified before the Subcommittee of National 
Park, Recreation and Public Lands, of the House Committee on Resources, 
on an identical bill, H.R. 2534, which had been introduced by 
Congresswoman Hilda Solis.
    The Department does not oppose the bill. However, the Department 
did not request additional funding for this study in Fiscal Year 2003. 
We believe that any funding requested should be directed towards 
completing previously authorized studies. Presently, there are 34 
studies pending, of which we expect to transmit 4 to Congress by the 
end of 2002. To meet the President's Initiative to eliminate the 
deferred maintenance backlog, we must continue to focus our resources 
on caring for existing areas in the National Park System. Thus, we have 
concerns about adding new funding requirements for new park units, 
national trails, wild and scenic rivers or heritage areas at the same 
time that we are trying to reduce the deferred maintenance backlog. As 
such, the Department will identify all acquisition, one-time and 
operational costs of the proposed site. At this time, those costs are 
unknown.
    In addition to S. 1865, Senator Feinstein has introduced S. 2571, a 
bill to evaluate and study the suitability and feasibility of 
establishing the Rim of the Valley Corridor as a unit of Santa Monica 
Mountains National Recreation Area. These bills affect nearly adjacent 
territories in the Los Angeles basin and affect nearly identical large 
constituencies. As any study would include a public involvement 
component, combining the planning effort to evaluate both areas would 
not only be less confusing to the public but also more cost-effective 
for the government. Since a study of the San Gabriel and Lower Los 
Angeles Rivers is estimated to cost approximately $500,000, there could 
be considerable efficiencies gained by combining and narrowing the 
focus of these two proposed studies.
    While some familiar with the Lower Los Angeles River and San 
Gabriel River watersheds may think of them as concrete-lined ditches, 
the rivers provide an important opportunity for low-impact recreation 
for many urban residents in adjacent communities. Several successful 
efforts have already been undertaken to provide bikeways and hiking 
areas along the river's banks. Additionally, small tracts of green 
space have been acquired to provide outdoor recreation opportunities in 
the form of playgrounds for children, picnic areas, benches for rest 
and respite from the urban environment and for areas to walk and 
bicycle. Many areas have been replanted with a variety of native 
vegetation to enhance the local environment.
    This study will assess habitat quality, access to urban open space, 
low-impact recreation and educational uses, wildlife and habitat 
restoration and protection and watershed improvements along the Los 
Angeles and San Gabriel watersheds as well as the Valley of the Rim 
corridor surrounding the San Fernando and La Crescenta Valleys. This 
latter corridor consists of portions of the Santa Monica Mountains, 
Santa Susanna Mountains, San Gabriel Mountains, Verdugo Mountains, San 
Rafael Hills and the connector to Los Padres and San Bernardino 
National Forests.
    The National Park Service has some familiarity with the region and 
these watersheds. Our National Park Service Rivers and Trails 
Conservation Assistance Program continues to have interaction with 
communities along the Los Angeles River and has provided technical 
assistance for outdoor recreation potential. Additionally, the Santa 
Monica Mountains National Recreation Area protects for 153,750 acres 
while providing recreational opportunities for approximately 530,000 
visitors annually.
    The watershed of the Los Angeles and San Gabriel Rivers contains 
important natural resources, which are disappearing in Los Angeles 
County. The continuous greenbelt corridors serve as habitat for 
breeding, feeding, resting or migrating birds and mammals, while 
allowing migration to take place around and amongst the urban areas. 
The higher reaches of the watershed also contain significant examples 
of rock outcroppings, as well as native vegetation.
    This area has a rich cultural heritage, which is evident by the 
approximately 9 properties within the boundaries of the study area on 
the National List of Historic Places and 96 properties on the state 
register of historic places. These properties weave a rich tapestry of 
the cultural history of the area and include Mission San Gabriel 
Archangel, the mission founded in 1771 by the Spanish missionaries who 
were moving up the coast of California; Mission San Fernando Rey de 
Espana, founded in 1797; Merced Theatre, the first building built 
expressly for theatrical purposes in Los Angeles, dating back to 1870; 
Lummis House, constructed by Charles F. Lummis, an author, editor, 
poet, athlete, librarian, historian and archeologist during his life 
from 1859-1928; Los Encinos State Historic Park, used as a headquarters 
by the Franciscan padres before they built Mission San Fernando; 
Angeles Flight Railway, which was an incline railway built in 1901 to 
carry residents up the hill from the downtown shopping district; and 
Alvarado Terrace Historic District, which includes 12 buildings 
displaying prime examples of architecture and social history from 1900-
1924.
    The Los Angeles River and San Gabriel River watershed is adjacent 
to the Angeles National Forest and contains state, county and local 
parks within. The recreational experience would be heightened by the 
establishment of trail connections and linkages for the urban 
populations of Los Angeles, as well as for visitors. These connections 
would also allow users to leave the populated areas and connect to the 
prime natural areas in the region. These trails would be used for 
hiking, mountain biking, nature study and bird watching.
    A study will outline public-private partnerships, which are core to 
preserving large tracts of open space such as are included in this 
study. The San Gabriel and Lower Los Angeles Rivers and Mountains 
Conservancy (RMC) was established as an independent State agency within 
the Resources Agency of the State of California in 1999. It was 
established to preserve urban space and habitats in order to provide 
for low-impact recreation and educational uses, wildlife and habitat 
restoration and protection and watershed improvements. The RMC has 
brought diverse groups together to work in partnership to protect the 
precious resources within these two watersheds.
    Any study that is undertaken along the San Gabriel and Lower Los 
Angeles Rivers will involve extensive public meetings, extended comment 
periods and more complex analyses because issues and options in a 
large, urban area with such a diverse and extensive group of 
stakeholders at all levels of government would be considered.
    This concludes my testimony. Thank you for the opportunity to 
discuss this issue and I would be willing to answer any questions you 
may have on this issue.
                                 ______
                                 
  Prepared Statement of Durand Jones, Deputy Director, National Park 
            Service, Department of the Interior, on S. 1943

    Thank you, Mr. Chairman, for inviting the National Park Service to 
present its views on S. 1943, a bill to expand the boundary of George 
Washington Birthplace National Monument. The Department supports the 
enactment of this bill.
    This bill would authorize the addition of approximately 115 acres 
to the National Monument (Muse property). It also authorizes the 
Secretary of the Interior to acquire lands or interests in lands within 
the boundary from willing sellers by donation, by purchase with donated 
money or appropriated funds or by exchange. Finally, it directs the 
Secretary to preserve and interpret the history and resources 
associated with George Washington, and the generations of the 
Washington family who lived in the vicinity, as well as their 
contemporaries, along with 17th and 18th century plantation life and 
society. Land acquisition costs are estimated to be $700,000. 
Operational costs are estimated to be $20,000 per year.
    The Department remains committed to the President's Initiative to 
reduce the maintenance backlog of the National Park Service. While the 
Department recognizes that this legislation may divert funds from this 
effort, the acquisition of the Muse property is essential to the 
viability of this nationally significant resource.
    George Washington Birthplace National Monument was established as a 
unit of the National Park System in 1930 to preserve the grounds and 
structures associated with the birthplace of George Washington. It was 
here, along the lower reaches of the Potomac River that the man who was 
to become our Nation's first president was born in 1732. At that time, 
this site was known as Popes Creek Plantation, owned and operated by 
George Washington's father, Augustine Washington. The park is part of a 
cultural landscape that has remained rural 270 years after George 
Washington's birth. Located in Westmoreland County, Virginia, the 
National Monument includes a memorial mansion with a kitchen, farm 
buildings, various outbuildings, an 18th Century working farm, and a 
visitor's center. The park also contains woodlands, wetlands, and 
agricultural fields. Even today, descendants of the Washington family 
continue to live in the area.
    This proposed legislation would include within the park boundary a 
privately owned parcel of land comprised of approximately 115 acres, 
known as the Muse tract, which is completely surrounded by the park, 
the Potomac River, and Popes Creek. Park roads provide the only access 
to this neighbor's land. This tract has been farmed by the Muse family 
since 1668, was contemporary with the Washington Family farm (Popes 
Creek Plantation), and is historically significant since it is directly 
connected with the plantation. Acquisition of this tract is vital to 
the integrity of the park and would prevent development that could 
degrade the park's pastoral setting and significant natural and 
cultural resources. The park's 1968 Master Plan contained a land 
acquisition plan showing fee acquisition of this privately owned tract 
and indicated that the Muse property could be used for historic farming 
or could be planted to retain the appearance of a cultural landscape.
    The boundaries of the National Monument have been modified numerous 
times since the first memorial was erected at the site in 1896. The 
park presently contains about 550 acres. For generations, the 
surrounding community has been a partner to the National Park Service 
in the protection of George Washington's birthplace. Many of the 
landowners, such as the Muse Family, come from families that have for 
generations farmed the fertile soils of Virginia's Northern Neck. It is 
only in the recent past that the area has started to change. 
Recreational use, vacations homes, and commuters to Washington D.C. and 
Richmond have increased the local population significantly creating 
development pressure that is beginning to encroach on the park. If the 
Muse tract is not acquired there is potential for commercial 
development that would directly threaten park values since the tract is 
surrounded by parklands. The Muse family has indicated their 
willingness to be included within the park boundary for eventual 
acquisition by the National Park Service or a park partner. The demand 
for land in the surrounding area is so significant that there is little 
doubt that the peaceful setting, the pastoral charm, and the quiet 
dignity of the tombs of several generations of Washingtons would be 
destroyed by the intrusion of modern development within the park 
without this legislation. Recently, a one-acre parcel of land that was 
proposed to be included within the park was sold.
    The National Monument also contains significant natural resources. 
The Muse tract includes half of the Digwood Swamp (a known bald eagle 
habitat and nesting area), extensive grasslands, riparian and upland 
forests, marshes, beaches, and cliffs (most likely with significant 
archaeological artifacts from the Woodland and Colonial periods as well 
as paleontological resources) and shares the shores of Popes Creek with 
the park. All are relatively pristine in nature and intact 
ecologically. These habitats are important to wildlife found within the 
park that use surrounding areas as conveyances to and from feeding, 
resting, and breeding areas. The preservation of this national treasure 
can only be accomplished by including the Muse tract within the 
boundary of the park.
    The proposal to add the Muse property to the National Monument is 
supported by the Westmoreland County Board of Supervisors, the 
Chantilly Chapter of the Daughters of the American Revolution, the 
National Parks Mid-Atlantic Council, the George Washington Birthplace 
National Memorial Association, and most importantly, the owners of the 
property.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.
                                 ______
                                 
  Prepared Statement of Durand Jones, Deputy Director, National Park 
            Service, Department of the Interior, on S. 2571

    Mr. Chairman, thank you for the opportunity to present the 
Department's views on this bill to study the Rim of the Valley in the 
Los Angeles region. S. 2571 directs the Secretary of the Interior to 
conduct a Special Resource Study to evaluate the suitability and 
feasibility of establishing the Rim of the Valley Corridor as a unit of 
Santa Monica Mountains National Recreation Area.
    The Department does not oppose this bill. However, because the 
study area includes a significant amount of U.S. Forest Service lands, 
we believe that the bill should be amended to authorize a joint study 
with the Department of Agriculture. The Department did not request 
additional funding for this study in Fiscal Years 2003. We believe that 
any funding requested should be directed towards completing previously 
authorized studies. Presently, there are 34 studies pending, of which 
we expect to transmit 4 to Congress by the end of 2002. To meet the 
President's Initiative to eliminate the deferred maintenance backlog, 
we must continue to focus our resources on caring for existing areas in 
the National Park System. Thus, we have concerns about adding new 
funding requirements for new park units, national trails, wild and 
scenic rivers or heritage areas at the same time that we are trying to 
reduce the deferred maintenance backlog.
    As such, the Department will identify all acquisition, one time and 
operational costs of the proposed site. At this time, those costs are 
unknown.
    Senator Boxer also has introduced S. 1865, a bill to evaluate and 
study the suitability and feasibility of nearby lower Los Angeles River 
and San Gabriel River Watersheds. These bills affect nearly adjacent 
territories in the Los Angeles Basin and affect nearly identical large 
constituencies. As any study would include a public involvement 
component, combining the planning effort to evaluate both areas would 
not only be less confusing to the public but also more cost-effective 
for the government. Since a study of the Rim of the Valley is estimated 
to cost approximately $500,000 there could be considerable efficiencies 
gained by combining and narrowing the focus of these two proposed 
studies.
    A combined study would assess habitat quality, access to urban open 
space, low impact recreation and educational uses, wildlife and habitat 
restoration and protection and watershed improvements along the rivers 
and watersheds as well as the Rim of the Valley corridor surrounding 
the San Fernando and La Crescenta Valleys. This latter corridor 
consists of portions of the Santa Monica Mountains, Santa Susanna 
Mountains, San Gabriel Mountains, Verdugo Mountains, San Rafael Hills 
and the connector to Los Padres, Angeles, and San Bernardino National 
Forests.
    Properties on the National Register of Historic Places are found 
within this area. Old stagecoach stops and images of the Wild West 
still exist. The Ronald Reagan Presidential Library is located within 
the Simi Hills. Amtrak's Coast Starlight line travels past many of 
these rich cultural and natural motifs. The area supports a diverse 
system of plants and animals, including 26 distinct plant communities 
and over 400 vertebrate species.
    The National Park Service has some familiarity with this region and 
watersheds. Santa Monica Mountains National Recreation Area provides 
protection for 153,750 acres while providing recreational opportunities 
for approximately 530,000 visitors annually.
    A study would outline public-private partnerships, which are core 
to preserving large tracts of open space such as are included in this 
study and which have been successful in the protection of Santa Monica 
Mountains National Recreation Area since it was authorized 25 years 
ago.
    The Department feels that the provision in S. 2571 that establishes 
a 17-member advisory commission is unnecessary. Any Special Resource 
Study undertaken by the National Park Service will entail extensive 
public outreach with members of the public and local governments, 
extended comment periods, and more complex analyses because issues and 
options in a large, urban area with such a diverse and extensive group 
of stakeholders at all levels of government would be considered.
    This concludes my testimony. Thank you for the opportunity to 
discuss this issue and I would be willing to answer any questions you 
may have on the issue.
                                 ______
                                 
  Prepared Statement of Durand Jones, Deputy Director, National Park 
            Service, Department of the Interior, on S. 2595

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 2595. This bill would allow 
Mesa Verde National Park to enter into a partnership with the Mesa 
Verde Foundation, associated tribes and others, to raise funds to 
construct and operate the Mesa Verde Cultural Center on lands outside 
the park owned by the Mesa Verde Foundation.
    The Department recognizes the needs that S. 2595 is seeking to 
address. However, the Department cannot support the bill because it 
would circumvent our process for identifying park priorities and 
eliminating the deferred maintenance backlog in our national parks. The 
Department is committed to supporting the President's Initiative to 
eliminate the park maintenance backlog, and we believe funds are more 
appropriately directed at this time to reducing the long list of 
necessary but deferred construction projects.
    The Park has had a very successful partnership with the Mesa Verde 
Foundation, and they have been working together on the Cultural Center 
concept for many years. However, there are a number of unresolved 
issues remaining, including the location of the center, the amount of 
funding that would be required from the National Park Service and the 
relationship of the center to other service-wide priorities. Even 
though the proposed center has been analyzed in an environmental 
assessment, it has not been subject to the internal review and 
priority-setting process used for line-item construction projects. 
Given the proposed cost of $50,000,000, at least a portion of which 
could come from appropriated funds, review by the Service-wide 
Development Advisory Board would be valuable in ensuring that the 
proposed center is designed in a sustainable and cost-efficient manner. 
These issues need to be resolved before this proposal is ready for 
authorization.
    S. 2595 would authorize the Secretary of the Interior to collect 
and expend donated funds and expend appropriated funds for the design, 
construction, maintenance, and operation of a cultural center and 
related facilities. The purpose of the cultural center and facilities 
would be to accommodate visitors, to protect artifacts and archival 
materials, and for the administration of Mesa Verde National Park. The 
bill provides that the cultural center and facilities would be built on 
privately owned lands located outside and adjacent to the boundary of 
the park.
    In the environmental assessment referenced earlier, the Park also 
analyzed a new visitor center, which would serve as the educational 
link connecting visitors to the park, regional resources and the 
modern-day tribes. Park visitors have long complained, especially 
during the winter months, about the 15-mile drive into the park, up a 
long, steep, narrow winding road to get to the Far View Visitor Center. 
The environmental assessment also analyzed having a small component of 
the cultural center to be dedicated to park administrative functions. 
This would locate the staff in close proximity to the associated 
communities and partners.
    The Department recognizes the deficiencies S. 2595 seeks to 
address, particularly concerning inadequacies associated with the 
current curatorial facilities. As we continue to make progress on the 
maintenance backlog, we will begin to identify additional high priority 
needs for future action. Addressing the curatorial needs at Mesa Verde 
National Park will likely emerge as a significant priority from the 
National Park Service's ongoing review process. We look forward to 
working with Senator Campbell and the Committee in addressing this 
deficiency.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.
                                 ______
                                 
  Prepared Statement of Durand Jones, Deputy Director, National Park 
           Service, Department of the Interior, on H.R. 1925

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 1925. This bill would 
require the Secretary of the Interior to conduct a study to determine 
the national significance, suitability and feasibility of designating 
the Waco Mammoth Site in Waco, Texas as a unit of the National Park 
System. H.R. 1925 passed the House of Representatives on May 14, 2002.
    The Department supports this bill. However, the Department did not 
request additional funding for this study in Fiscal Year 2003. We 
believe that any funding requested should be directed towards 
completing previously authorized studies. Presently, there are 34 
studies pending, of which we expect to transmit four to Congress by the 
end of 2002. To meet the President's Initiative to eliminate the 
deferred maintenance backlog, we must continue to focus our resources 
on caring for existing areas in the National Park System. Thus, we have 
concerns about adding new funding requirements for new park units, 
national trails, wild and scenic rivers or heritage areas at the same 
time that we are trying to reduce the deferred maintenance backlog. As 
such, the Department will identify all acquisition, one-time and 
operational costs of the proposed site. At this time, those costs are 
unknown.
    H.R. 1925 calls for the completion of a special resource study of 
the Waco Mammoth Site that determines the national significance, 
suitability and feasibility of designating the site as a unit of the 
National Park System. The bill calls for the study to be completed 
under the guidelines in P.L. 91-383 and submission of the study results 
to Congress not later than three years after funds are first made 
available for the Act.
    The Waco Mammoth Site area is located near the confluence of the 
Brazos and the Bosque rivers in Central Texas, not far from the city of 
Waco. Baylor University has been investigating the site since 1978 
after hearing about bones emerging from eroding creek banks that led to 
the uncovering of portions of five mammoths. Since then several 
additional mammoth remains have been uncovered--making this the largest 
known concentration of mammoths dying from the same event.
    The discoveries have received international attention, with 
archeologists and paleontologists from Sweden and Great Britain 
visiting the site. Many of the remains have been excavated and are in 
storage or still being researched. The University and the city of Waco 
have been working together to protect the site, as well as develop 
further research and educational opportunities.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.

    Senator Akaka. Now we will hear from Ms. Mellon. Your 
statement, please.

  STATEMENT OF LORI A. MELLON, EXECUTIVE DIRECTOR, MESA VERDE 
                           FOUNDATION

    Ms. Mellon. Thank you. Mr. Chairman, members of the Park 
Subcommittee, thank you for inviting us here today. It is an 
honor to come before you and tell you about this marvelous and 
urgently needed project to create a cultural center for Mesa 
Verde National Park and the thousands of visitors who come to 
the park each year.
    My name is Lori Mellon, and I am representing Mesa Verde 
Foundation. We are here to ask your help in making possible 
this unique public-private partnership and move it forward 
expediently.
    S. 2595 will enable private lands, which are those owned by 
the Mesa Verde Foundation, and donated funds to be used to help 
design and construct a facility to welcome park visitors and to 
care for, store, research, and display roughly 3 million 
artifacts from Mesa Verde.
    The passage of this bill will give the imprimatur to the 
partnership, thereby endorsing our mission and allowing us, in 
partnership with the park, to go forward with planning, 
fundraising, designing, and building the cultural center. 
Without its passage, we can do none of this.
    To accomplish our objective requires relationships between 
the Government and various partners. Notable precedents exist, 
including Rocky Mountain National Park and Rocky Mountain 
National Park Associates, Inc. They are a nonprofit 
organization. Deputy Director Jones was personally involved 
with this project.
    Mesa Verde Foundation is Mesa Verde National Park's primary 
partner. We were founded in 1997 as a nonprofit organization 
with a mission to promote an understanding of the cultural and 
natural resources connected with, and to fund charitable and 
educational endeavors for, Mesa Verde National Park. Our 
current efforts and activities are directed to establishing a 
cultural and visitor center complex at the entrance to the 
park.
    In anticipation of building a cultural center, the 
foundation, more than 2 years ago, purchased a 37\1/2\ acre 
tract of land adjoining the entrance to the park. The approved 
environmental assessment, which Senator Campbell mentioned, 
identify the foundation's property as the ideal site for the 
proposed center. The successful completion of the environmental 
assessment and its approval with a signed finding of no 
significant impact have allowed the park and the foundation to 
take the next critical step: that is, to seek the support of 
Congress to enact legislation essential to permitting the 
construction of the proposed cultural center on property owned 
by the foundation.
    To date, we have made significant progress on our mission. 
In addition to the land acquisition, we have established a 
professional office and staff to begin planning for the next 
phase of the project. We are in the process of identifying 
other partners who will include the 24 associated Tribes and 
Pueblos of Mesa Verde and the park's museum association. We 
must codify their roles and responsibilities. And I can tell 
you that is in process and in draft and discussion as I speak.
    I would like to take a moment to share our vision of the 
cultural center, to discuss why it is critical to the operation 
and continued success of Mesa Verde National Park and help you 
understand why its making would so engage ordinary citizens to 
the point of giving of their own time, goodwill, and personal 
funds.
    In its public functions, the cultural center will welcome 
visitors and offer amenities, such as ticketing, eliminating 
the need to drive 20 miles into the park just to learn if they 
will be able to see the spectacular cliff dwellings during 
their visit. They will be able to preview the architectural 
wonders and works of the ancestral Pueblo people. They will be 
introduced to the spiritual and sacred beliefs of the 24 
associated Pueblos and Tribes who, for the first time, will be 
able to share their culture, heritage, and history on the site 
where their ancestors lived.
    The cultural center will have ample space to exhibit more 
of the priceless historical and prehistoric artifacts from the 
park's collection, as well as contemporary works by associated 
Tribe members. Finally, researchers, Tribes, and the public 
will have access to the collection and archives for 
examination, education, and inspiration.
    Behind the scenes, the cultural center will serve to 
overcome serious inadequacies in the existing storage structure 
through a purposely built, state of the art collections storage 
and study facility. The cultural center will also provide 
employees with safe and adequate working conditions, which do 
not exist at present.
    Current value analysis planning calls for a complex of 
96,000 square feet to house curation, exhibition, visitor, and 
administrative services. It will also include an additional 
36,000 square feet for outdoor interpretive plazas and a large 
amphitheater. The cultural center's design will reflect 
environmental responsibility and energy efficiency. It will be 
visually compatible with the natural surroundings and relate to 
other historic architecture in the park. Over time, the 
cultural center will take on historic value to our Nation.
    The history of our Nation's commitment to Mesa Verde 
encompasses nearly 100 years. The act of June 29, 1906, created 
Mesa Verde National Park to preserve from injury or spoilation 
the magnificent cliff dwellings and other archeological sites 
and artifacts of the prehistoric people that once lived there. 
Subsequent park planning has long identified the need to better 
serve visitors and provide improved storage, access, and 
display of the collections.
    The service has outgrown the small historic structures on 
the Mesa and, to function effectively, requires space that is 
just not available within park boundaries. The foundation site 
for the cultural center will not impact the integrity of the 
park or its archeological sites. Yet it will preserve the 
historic approach to the park.
    The cultural center will directly fulfill essential aspects 
of the park's mission to advance archeological science, provide 
for the education and enjoyment of the park's resources by 
future generations, and recognize and respect the values and 
traditions of the associated Native American Tribes.
    Mesa Verde contains some of the most extraordinary and 
best-preserved archeological sites in the Nation and the world. 
Mesa Verde was among the original 12 locations chosen by UNESCO 
in 1978 as a world heritage site. In 1999, the White House 
Millennium Council and the National Trust for Historic 
Preservation honored Mesa Verde as an American treasure.
    S. 2595 is the next benchmark in the development of the 
cultural center. Similar legislation has been introduced in the 
House. With your support and endorsement by means of this 
legislation, Mesa Verde National Park and Mesa Verde 
Foundation, as well as all other partners, interested parties 
and friends, can go forward in bringing closer to realization 
the cultural center at Mesa Verde National Park.
    To Senator Campbell, we proffer our thanks and gratitude 
for his interest and support of both our partnership and the 
development of the center.
    Mr. Chairman, I thank you again for the opportunity to talk 
with you and the subcommittee. And with this, I conclude my 
prepared remarks. I would be pleased to take any questions you 
may have.
    Senator Akaka. Thank you very much for your testimony.
    We have questions for both of you. And I will begin with 
Mr. Jones.
    My first question involves S. 2595, the Mesa Verde cultural 
center. I understand the administration's general policy to 
focus resources on deferred maintenance projects, the backlog. 
But apart from this issue, is a primary concern with this bill 
the use of Federal funds to build a center on private lands, or 
is this a project that, in your opinion, is not ready for 
authorization at this point in time?
    Mr. Jones. Mr. Chairman, we hope we are very close. We feel 
a major concern we have in the bill as currently drafted is the 
authorization to expend Federal construction dollars on 
privately owned lands, because we are very concerned about how 
we can ensure the protection of the taxpayers' investment on 
those privately owned lands.
    There is no doubt, for example, of the tremendous need for 
curatorial storage protection. The remainder of the scope of 
the project, to my knowledge, has not gone through a National 
Park Service review to agree upon how much at the facility is 
needed and what are the priorities for implementing the 
program.
    We are also concerned, and I contrast this with two other 
examples, Gettysburg National Military Park and Rocky Mountain 
National Park, that before we began the process, we had very 
clearly agreed upon, written and signed documents that outlined 
the scope of who was providing what funding and what is the 
future obligation of the United States in the completion of 
this project. And at this point, especially given the scale of 
the project, we are concerned about the potential liability of 
the United States.
    Senator Akaka. I understand that one of the primary 
purposes of the center is to provide proper storage for many of 
Mesa Verde's artifacts. If construction of the cultural center 
is deferred, what is the cost to the Park Service in terms of 
potential damage to these artifacts? Is there a threat that 
some of them could be damaged by remaining in inadequate 
storage conditions?
    Mr. Jones. Yes, Senator, there is that concern. A lot of 
the artifacts have recently been moved into temporary storage 
on a short-term basis. And we do have an urgent need of finding 
a long-term solution as quickly as possible.
    Senator Akaka. With respect to the L.A. River study, S. 
1865, the intent is clearly to assess a variety of options for 
recreational use and open space protection of the L.A. River, 
not to study the potential for a traditional national park, 
such as Yosemite or Yellowstone. Are there any existing units 
of the National Park System that might serve as appropriate 
models for this study?
    Mr. Jones. We have had some expertise in places like 
Mississippi River and places like the Chattahoochee River 
outside of Atlanta that could serve as models. Our agency has 
extensive experience with the relatively new concept of 
heritage areas, which are public-private partnerships, not as 
units of the National Park System, where we offer expertise to 
the local communities on how to protect resources.
    Senator Akaka. Mr. Jones, in your testimony about the Waco 
Mammoth site study bill, H.R. 1925, you indicate that this is 
the largest known concentration of mammoths dying from the same 
event. I am curious. What killed the mammoths at this site? And 
what can the fossils at this site tell us about the events that 
took place?
    Mr. Jones. The event appears to have been a heavy rainstorm 
that resulted in a flood that trapped and drowned the mammoths 
into the mud, which is also what helped preserve the remains. 
As the paleontologists have looked at the remains, there are 
some behavioral characteristics of the animals that can be 
learned, as one animal apparently from its position and action 
was trying to save a younger member of the herd. So both animal 
behavior and just a great deal of public information about the 
biology of the mammoths can be learned from this site.
    Senator Akaka. Thank you.
    Let me ask for questions from Senator Thomas.
    Senator Thomas. Thank you, sir. I have several. I will do 
it very quickly. And if you can answer quickly, that will be 
fine.
    How many studies did the Park Service do in 2002, or will 
you do?
    Mr. Jones. We will complete another 4 by the end of the 
year. And I am not current--and I know you always ask, and I 
apologize. I do not have the current number for this year. But 
we still have a tremendous backlog.
    Senator Thomas. You have 34 pending now.
    Mr. Jones. Yes, sir.
    Senator Thomas. You will do 4 more.
    Mr. Jones. Yes, sir.
    Senator Thomas. I guess I--we put studies in the bill in 
1998, of course, and I am pleased with that. But if you are 
going to do studies in a timely way, it looks like you are 
going to have ask for some money to do it more quickly.
    Mr. Jones. And at this point, we are not asking for an 
increase in the funding for studies. And your earlier statement 
is correct, it would be a few years before we would be able to 
initiate this study. Our approach has been not to try and 
prioritize one study versus another, but match the needed 
funding with what we have and try to do them in the order in 
which they were approved by the Congress.
    Senator Thomas. I just think that a 3-year wait or 4-year 
wait is going to be a little--people are going to be a little 
impatient, if that is the case, over time.
    Mr. Jones. Yes, sir.
    Senator Thomas. May I just digress a second and ask that 
the statement from Senator Allen from Virginia be included in 
the record? He was unable to be here today.
    Senator Akaka. His statement will be included in the 
record.
    Senator Jones. Thank you.
    [The prepared statement of Senator Allen follows:]
  Prepared Statement of Hon. George Allen, U.S. Senator From Virginia
    Mr. Chairman, I thank you for holding a hearing in your 
Subcommittee on the subject of the George Washington Birthplace 
National Monument. This historically significant landmark is located in 
Westmoreland County, Virginia on the Potomac River side of the 
``Northern Neck.'' I strongly believe the birthplace of our nation's 
first President and a key Founding Father should be preserved as a 
hallowed ground for all who wish to visit, enjoy and learn.
    The bill, which is currently before the Subcommittee, S. 1943, will 
modify the boundaries of the George Washington Birthplace National 
Monument to include an additional 115 acres in Westmoreland County. The 
prospective 115 acres are currently owned by the Muse Family, who are 
presently ``willing sellers'' of the land. The Secretary of the 
Interior is authorized to acquire land from willing sellers by 
donation, purchase with donated money or appropriated funds or 
exchange.
    The George Washington Birthplace National Monument currently 
encompasses approximately 550 acres of land. The purpose of acquiring 
this additional land is to preserve the pastoral, bucolic setting and 
prevent development of proposed condominiums on the adjoining land.
    Scholars, historians and common citizens have made the pilgrimage 
to the birthplace of George Washington since 1815. Visitors from all 
over the world have journeyed to the Commonwealth of Virginia to see 
the place where the first President of the United States was born. 
Today, this 550-acre park memorializes the life of George Washington 
and the place of his birth. The park now includes a Visitors Center 
that coordinates activities and houses exhibitions. There is also an 
oyster shell outline, which is the brick foundation of the house where 
George Washington was born. The Washington family cemetery where George 
Washington's father, grandfather, and great-grandfather are buried are 
also on the grounds.
    The National Park Service now maintains the Memorial House, 
kitchen, and typical plantation surroundings on the property. There is 
also a picnic grounds area with a nature trail for hikers and other 
outdoors enthusiasts, along with the Potomac Riverbeach area.
    George Washington Birthplace National Monument calls to mind the 
spirit and feel of the typical 18th century Virginia tobacco farm. The 
historic buildings in the area, groves of trees, various herds of 
livestock, beautiful gardens, as well as peaceful rivers and creeks 
were the earliest scenes of George Washington's childhood. The setting 
at George Washington Birthplace National Monument interprets the 
childhood setting which greatly influenced the formative years of 
George Washington and later the man and leader that he became.
    It is interesting to note that George Washington later lived as a 
child at Ferry Farm on the Rappahannock River near Fredericksburg. And 
then, as an adult, we know he created and operated the several farms 
adjoining Mount Vernon, up river on the Potomac in Fairfax County.
    As you know, George Washington was Commander-in-Chief of the 
Continental Army, President of the Constitutional Convention, and the 
first President of the United States of America. George Washington was 
the one man who possessed the skills that would defeat the greatest 
military power on earth at the time, unite thirteen diverse colonies 
into the first successful republic since Rome, and lend his character 
to the newly created Office of President. His leadership in this 
country's infant stages cannot be overstated.
    The commemoration of Washington's many significant contributions to 
the United States has overshadowed much of his early, formative years. 
The humble beginnings of George Washington influenced his character and 
ambition as he attempted to distinguish his efforts in Colonial 
Virginia society.
    This bill has been favorably reviewed by the National Park Service, 
which also includes the salient preconditional fact that the current 
landowners are willing sellers. Also, importantly to me, the 
Westmoreland County Board of Supervisors are honored and privileged to 
have George Washington Birthplace National Monument in their county and 
also strongly support the expansion of the park. This is a positive 
opportunity for all parties involved.
    Mr. Chairman, I strongly support this legislation, along with my 
distinguished colleague from Virginia, and hope to soon see the bill on 
the floor of the U.S. Senate. Thank you once again for holding this 
hearing to expand the George Washington Birthplace National Monument 
and I respectfully request its favorable passage.

    Senator Thomas. Let me see.
    The combined study, then, I understand that in this Rim of 
the Valley corridor that you would promote the idea of having 
it jointly with the Forest Service and see if you can work out 
something that way.
    Mr. Jones. Yes, sir. From what we know, we have a good 
relationship with the Forest Service, especially from our unit 
at the Santa Monica Mountains National Recreation Area. And our 
experience has been that we think they are doing an excellent 
job.
    Senator Thomas. Good. It looks like it is some combination 
there.
    In Waco with the mammoth study site, the city of Waco and 
Baylor University have been handling this now for 23 or 24 
years.
    Mr. Jones. Yes, sir.
    Senator Thomas. What is wrong with that?
    Mr. Jones. It is my understanding that they have been 
endorsing this particular study.
    Senator Thomas. Oh, I am sure they have.
    Mr. Jones. Well, as we complete--the proper answer to your 
question, I mean, certainly is we would conduct the study. It 
needs to look at and explore all the options for protection of 
the resource.
    Senator Thomas. But it is being protected, is my point. Do 
you consider that when you do the study, or do you think that 
everything that anyone sends up should obligate the Park 
Service to do it? I think we are going to have to start making 
some decisions. You do not have enough money. We hear that from 
you five times a year. And yet this is likely--most of this is 
to get the financing over to the Federal Government, rather 
than for them.
    Mr. Jones. Yes, sir.
    Senator Thomas. Well, I think you ought to just take a look 
at it and see if it--I mean, it is something that needs to be 
saved. But whether it needs to be in the park units, I think, 
is really an issue.
    Mr. Jones. And I would agree with you completely on that.
    Senator Thomas. And you mentioned the heritage systems. We 
do not have any definition or criteria for what they are. How 
far do we go with national park facilities, as opposed to local 
and State? So, you know, at any rate, I hope you will project 
some of that in the studies, as they come by.
    Mr. Jones. It certainly is an issue that we share your 
concern about because, as the Senator knows, we are having a 
great deal of difficulty taking care of what we have now.
    Senator Thomas. Yes. Well, and there should be some 
criteria for what falls in more likely to be a national park or 
a national responsibility. And, gosh, a lot of the good things 
we have in this country are local and State. The State park 
system is excellent.
    So, in any event, thank you, Mr. Chairman.
    Senator Akaka. Thank you very much.
    Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman. I am happy to 
report that S. 2595 does not need any further studies, at least 
to my knowledge.
    Ms. Mellon and I are on the same side of this issue. So I 
do not have any questions for her, except perhaps one, because 
it keeps coming up. I am sure you have noticed that. And that 
is the responsibility of the Federal Government from the 
standpoint of money. Does the foundation intend to have the 
Federal Government pay for part of this facility? If so, what? 
And what percent?
    Ms. Mellon. The foundation needs to conduct a feasibility 
study to see if the money is out there to support the cost of 
the proposed cultural center. We feel very strongly that a 
public-private partnership will be required to reach the goal 
of funding the entire cultural center.
    Senator Campbell. Well, you said it would be 96,000 square 
feet. So what would be----
    Ms. Mellon. Of internal space.
    Senator Campbell. What would be the estimated cost of a 
building?
    Ms. Mellon. The entire complex is estimated at about $50 
million.
    Senator Campbell. $50 million. Okay.
    Ms. Mellon. Yes.
    Senator Campbell. I have some questions for Randy Jones, 
but I do not want to make him mad, because we have a lot of 
work to do on this bill together. But let me ask you a couple 
anyway.
    Senator Akaka. You had better stop now.
    Senator Campbell. Stop right now?
    [Laughter.]
    Senator Campbell. Have you visited this facility, this 
literal tin shed, this great big barn of a building where they 
house all this stuff, Randy?
    Mr. Jones. No, sir, I have not.
    Senator Campbell. Well, I would encourage you----
    Mr. Jones. I have been to the park, but I have not----
    Senator Campbell [continuing]. If you are in that area to 
drop by and see it. I was amazed that they would keep such 
priceless things in a building that was, in my view, rather 
dilapidated.
    As I read the language, let me just say this provision in 
the bill says, ``The Secretary of the Interior is authorized to 
collect and expend donated funds and expend appropriated 
funds.'' Authorized, but it does not require her to do 
anything. But you still have some problems with that provision, 
apparently.
    Mr. Jones. Yes, sir, we do.
    Senator Campbell. Okay. We can work on that.
    I understood, also, that there was a line item of $6 
million in the President's budget for phase one construction in 
2006, but it was taken out. Is that correct?
    Mr. Jones. That is correct, because it was--in the review 
process that went through, at this point we felt it was not 
ready for actually putting into the President's budget. And 
some of the questions that need to be answered, for example, 
are where it would go and on whose land it would go. There is 
no doubt in my mind, from the studies that have been identified 
to date, that for the curatorial storage facility aspects that 
have been the most extensively studied, the various needs 
there, that it would rank as a very high priority, if it was 
being proposed to be put on Federal lands.
    Senator Campbell. You were at Rocky Mountain National Park.
    Mr. Jones. Yes, sir.
    Senator Campbell. Just in a quick capsule, what is the 
difference between the facility we built at Rocky Mountain 
National Park, or was built, as a visitor center that was, as I 
understood, outside the park gate and this one?
    Mr. Jones. The difference was the one at Rocky Mountain 
National Park had no Federal funds in the design or the 
construction of the facility. And we also had, before we came 
to you, a signed written agreement that outlined exactly what 
we were doing and whose obligation every component of the 
project was going to be.
    Senator Campbell. Okay.
    Mr. Jones. So we had knowledge going in, essentially.
    Senator Campbell. Yes. Well, we can work on that.
    Under the Secretary's current authority, what if somebody 
won a bunch of money, and they wanted to donate it, $100 
million to build a storage facility on foundation land, but 
they gave it to the Secretary? Can the Secretary use those 
funds or accept it without congressional approval?
    Mr. Jones. To actually construct the facility outside the 
park we could not expend those funds.
    Senator Campbell. You could not. Even if somebody wanted to 
give you the money, you could not accept it or use it?
    Mr. Jones. We could not use it. Well, if we cannot use it, 
we cannot accept it.
    Senator Campbell. You could with congressional approval.
    Mr. Jones. With congressional approval. And that gets back, 
Senator, to your distinction with Rocky Mountain National Park. 
There, the authorization was very simple, authorizing us to 
expend operating funds, maintenance funds in the operation of 
the facility, and authorizing us to accept the donations.
    Senator Campbell. Good. See, Lori is taking notes there? 
That is good.
    [Laughter.]
    Senator Campbell. What about if they built a facility on 
their land, could the Park Service have a ranger staff that 
facility?
    Mr. Jones. Yes, sir.
    Senator Campbell. It could?
    Mr. Jones. Yes, sir.
    Senator Campbell. With your budget?
    Mr. Jones. Yes, sir.
    Senator Campbell. Well, I think I understand where we need 
to go, Mr. Chairman.
    Mr. Jones. And, Senator, one----
    Senator Campbell. Oh, maybe one--excuse me.
    Mr. Jones. We definitely want to work with you to make this 
work.
    Senator Campbell. Well, we will. Maybe one other question, 
too: This old building, that current facility was targeted for 
replacement 20 years ago, as I understand.
    Mr. Jones. Twenty years ago.
    Senator Campbell. So it is way past overdue. Why was it not 
on the deferred maintenance list? Why has it been waiting so 
long to be upgraded?
    Mr. Jones. I do not know that it is not on the maintenance 
list. But as far as why it has not been upgraded to date is, it 
gets back to the current $4.6 billion backlog of deferred 
maintenance we have.
    Senator Campbell. Okay. But are there things in worse shape 
than that that are in a higher priority?
    Mr. Jones. That would be a higher priority? Yes, sir, there 
would be.
    Senator Campbell. I think that is all the questions I need 
to be able to work with, Mr. Jones. Thank you.
    Senator Akaka. Thank you for your questions.
    Mr. Jones. But we definitely want to work with you, 
Senator.
    Senator Campbell. Looking forward to it. Thank you.
    Senator Akaka. Thank you for your questions, Senator 
Campbell. I think it appears that you have plans as to how you 
are going to work this out.
    Senator Campbell. Got plans.
    [Laughter.]
    Senator Akaka. Ms. Mellon, I have one question for you. And 
maybe this will resolve the problems. But one of the issues 
with this bill is a concern over using Federal funds for a 
facility on private lands. To address this concern, and since 
the foundation owns the land currently, and this is just a 
question that might resolve the situation, has the foundation 
ever considered donating the land to the National Park Service 
to allow for its addition to Mesa Verde?
    Ms. Mellon. Certainly that is under discussion, and we are 
talking about it again, as I sit here in Washington. There are 
many opinions as to ways this can be accomplished. And we want 
to obviously make it happen and make it work the right way. I 
know that in similar instances donations of land that have been 
non-Federal have been written into the agreements for 20 years 
hence, or could be extended another 20 or another 20.
    There have been discussions about outright donation, 
rental, purchase. The point being: the reason that we are 
thinking about it the way that we have approached you is 
because that allows us to go after the philanthropic dollar. If 
this is Federal land, Federal property, Federal employees, 
Federal collections, there is no chance of raising outside 
private funds. And this way there is.
    And since we are talking about such a huge amount of money 
here, and $50 million is nothing to sneeze at, we want to 
approach every possible source. So that is why we have 
approached it in the way that we have, sir.
    Senator Akaka. Mr. Jones, would you like to comment?
    Mr. Jones. The transfer of the property to the National 
Park Service would solve most of the problems that have been 
identified in the discussion today from our opinion. I also 
respectfully have a different view on the ability of 
fundraising, based on my own experience.
    I mean, on the Rocky Mountain National Park we were raising 
anywhere from $1 million to $3 million a year in donated funds 
for construction projects on Federal lands within the national 
park. On a nationwide basis, we are raising hundreds of 
millions of dollars for projects on Federal lands in national 
parks.
    Senator Akaka. Thank you for your responses.
    Are there any further questions?
    Well, I want to thank my witnesses today. And what you have 
done is you have been very helpful to our making our decisions 
on this committee.
    So this concludes our hearing. We will keep the record open 
for 2 weeks, if anyone wishes to submit additional comments on 
any of these bills.
    The subcommittee is adjourned.
    [Whereupon, at 3:41 p.m., the hearing was adjourned.]

    [The following letter was received for the record:]

                             Congress of the United States,
                                     Washington, DC, July 18, 2002.
Subcommittee on National Parks,
Committee on Energy and Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Akaka, Ranking Member Thomas, and Members of the 
Subcommittee: We are sending this letter to express our strong support 
of H.R. 1925, the Waco Mammoth Area Study Act, and to ask for yours. 
The Waco Mammoth Site has local, national and international 
significance as the world's largest known concentration of prehistoric 
mammoths that died from the same event.
    The Waco Mammoth Site Study Act authorizes a study by the National 
Park Service to consider including the Waco Mammoth Site as a unit in 
the National Park System. This bill was passed by the House of 
Representatives on May 14, 2002, and now awaits consideration by your 
Subcommittee. Because there are numerous different categories in the 
National Park System, such as a national monument or a cultural 
historical site, this study will determine the appropriate designation, 
if any, for the Waco Mammoth Site.
    Over 28,000 years ago, a mud flood overcame a herd of mammoths. 
While not able to move to safety, the mammoths were able to form a 
protective stance over their young. In fact, the mud engulfed one 55-
year old male and 45 year-old female mammoth as they tried to use their 
tusks to lift their young calves to safety. This parental instinct is 
the first known recording in history. So far, the bones of twenty-four 
mammoths have been found.
    The site was discovered in 1978, and Baylor University's Calvin 
Smith has led the research effort since 1984. This site and Smith's 
research have received worldwide attention. Experts such as Dr. Gary 
Haynes of the University of Nevada at Reno have said that the Waco 
Mammoth Site is a valuable and unique treasure that should not be lost. 
Dr. Haynes states that the mammoth site ``is a part of America's rich 
heritage from the far past, when a much more diverse animal community 
populated the continent.'' In fact, the Department of Interior hopes 
that the Waco Mammoth site will be an example of a ``living 
laboratory'' for which we can continue to learn about life before us. 
The Mammoth Site can also be a valued learning tool for school children 
of various grade levels throughout much of Texas, as well as a site of 
study for professional paleontologists.
    We appreciate your time and consideration of this important bill, 
and hope you will support its passage.
            Sincerely,
                                   Kay Bailey Hutchison.
                                   Chet Edwards.


</pre></body></html>
